No.

3ht Wife Supreme Court of tfje ®ntteJ5 States;
JANE DOE, Petitioner
v.
DARDANELLE SCHOOL DISTRICT

CERTIFICATE OF SERVICE
I, George M. Rozzell, counsel for the Petitioner, Jane Doe, hereby certify that
on this 25th day of September 2019,1 caused three copies of the Petition for Writ of
Certiorari to be served by U.S. Mail with appropriate postage prepaid on the
following counsel:
Jay Bequette
Cody Kees
425 West Capitol Avenue. Suite 3200
Little Rock, Arkansas 72201
ckees@bbpalaw.com
Attorneys for Respondent
I further certify that all parties required to be served have been served.
George Rozzell
Mason L. Boling
Counsel of Record
KEITH, MILLER,
BUTLER, SCHNEIDER
& PAWLIK, PLLC
224 S. 2nd ST.
ROGERS, AR 72756
(479) 621-0006
Executed on

. 2019.

j

